WAIVER

SUPREME COURT OF THE UNITED STATES

: :
No. 20-8170 |

Ronnie Ray Ogle IMike Parris, Warden

(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© 1 am filing this waiver on behalf of all respondents.

oO only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

I am not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: | LFS

Date: | 6/24 / 202) |

(Type or print) Name

 

Richard Davison Douglas

 

© wr. © Ms. O Mrs. O Miss
Firm (Office of the Tennessee Attorney General and Reporter : |
Address P.0,Box 20207, |
City & State Nashville, Tennessee | zip {37202 |
Phone (615)741-4125 - | Email Davey.Douglas@ag.tn.gov |

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Ronnie Ray Ogle

‘309203

P.O. Box 2000
Wartburg, TN 37887
